January 31, 2000

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SYLVESTER BLACK
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:	 Transmittal of Audit Report - Commercial Air Carrier Performance:
          Effectiveness of Pay for Performance (Report Number TR-AR-00-004)

This is the second of three reports resulting from our audit of commercial air carrier
performance (Project Number 99PA023TR002) conducted at the request of the chief
operating officer. This report addresses the effectiveness of the pay for performance
clause of the Air Systems contract in improving air carrier performance.

The audit revealed pay for performance has not been effective in improving air carrier
performance and performance data underlying incentive payments is unreliable. We
recommended discontinuing of incentive payments and eliminating the current pay for
performance clause in future renewals of the Air Systems contract. Management
agreed with the report findings and recommendations. They indicated they are
commencing discussions with the commercial air carriers to discontinue incentive
payments from the current pay-for-performance system and the use of the current the
current pay-for-performance system in future contracts. Management’s comments and
our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact     , director,
Transportation, at     or me at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment

cc: Clarence E. Lewis, Jr.
    John E. Potter
    Tony M. Pajunas
    John R. Gunnels
Commercial Air Carrier Performance:                             TR-AR-00-004
Effectiveness of Pay for Performance


                                   TABLE OF CONTENTS
Part I


Executive Summary
                                                 i


Part II


Introduction
   Background                                                      1
   Objectives, Scope, and Methodology                              2



Audit Results
   Effectiveness of Pay for Performance                            3

   Recommendations                                                 4
   Management’s Comments                                          4

   Evaluation of Management’s Comments                            5



Appendix. Management’s Comments                                    6





                                       Restricted Information
Commercial Air Carrier Performance:                                                                  TR-AR-00-004
Effectiveness of Pay for Performance


                                      EXECUTIVE SUMMARY
Introduction 	                    This is the second of three reports resulting from our audit
                                  of commercial air carrier performance.1 The chief operating
                                  officer requested that we review air carrier performance
                                  because carriers have not been meeting expected on-time
                                  delivery targets established by the Postal Service’s Air
                                  Systems contract. In fiscal year (FY) 1999, the national
                                  average score for on-time performance was 60 percent, as
                                  reported by the Postal Service.

                                  This report presents our assessment of the effectiveness of
                                  the pay for performance clause of the Air Systems contract
                                  in improving air carrier performance.

Results in Brief	                 The pay for performance clause of the Air Systems contract,
                                  which was introduced in September 1998, has not been
                                  effective in improving air carrier performance. Although the
                                  intent of pay for performance was to increase air carrier
                                  scores to 85 percent or better, national scores have only
                                  increased from 56 to 60 percent since September 1998. As
                                  a result, the Postal Service spent only $7.8 million of $67
                                  million allocated for incentive payments under the Air
                                  Systems contract.

                                  The six air carriers interviewed believed the pay for
                                  performance incentives offered were not adequate to justify
                                  the additional investment required to achieve contract
                                  performance targets. They also attributed limited service
                                  improvements to unreliable performance scores. Further,
                                  our February 2000 report2 confirmed that performance
                                  scores are not reliable because carrier delivery times were
                                  not always accurately captured through the Postal Service’s
                                  scanning operations. Air carrier scores were also not
                                  representative of overall air carrier performance because
                                  only priority mail was tested.

                                  Because pay for performance has not produced the service
                                  improvements originally envisioned, payment amounts are
                                  not sufficient to be an incentive for carriers, and supporting
                                  scores are unreliable continued use of the current pay for
                                  performance is not appropriate.
1
  The first report addressed the reliability of the Postal Service’s performance measurement system used to evaluate
air carrier performance and the third report addressed ground handling services performed by postal employees.
2
  Commercial Air Carrier Performance: Performance Measurement System, TR-AR-00-003, (January 31, 2000).



                                                         i
                                              Restricted Information
Commercial Air Carrier Performance:                                              TR-AR-00-004
Effectiveness of Pay for Performance




Summary of                    Due to the questionable benefits of pay for performance and
Recommendations               the lack of accurate performance data upon which to base
                              payments, we recommend the vice president, Purchasing
                              and Materials, in coordination with the vice president,
                              Network Operations Management immediately discontinue
                              incentive payments and eliminate the current pay for
                              performance clause in future renewals of the Air Systems
                              contract.

Summary of                    Management agreed with our findings and
Management’s                  recommendations and stated they are commencing
Comments                      discussions with commercial air carriers to discontinue
                              incentive payments from the current pay-for-performance
                              system and the use of the current the current pay-for-
                              performance system in future contracts. Management’s
                              comments are included in their entirety in the appendix of
                              this report.

Overall Evaluation of         Management’s comments are responsive to our findings
Management’s                  and recommendations, and planned actions address the
Comments                      issues identified in this report.




                                                 ii
                                       Restricted Information
Commercial Air Carrier Performance:                                               TR-AR-00-004
Effectiveness of Pay for Performance


                                          INTRODUCTION
Background 	                  In FY 1999 the Postal Service spent over $670 million under
                              its Air Systems contract with air carriers to move more than
                              2.1 billion pounds of Priority Mail and First-Class Mail.
                              Although the Air Systems contract established a 98 percent
                              on-time delivery target, national air carrier performance
                              averaged 60 percent in FY 1999. Because air carrier
                              performance directly impacts on-time delivery, air carrier
                              delays can hinder the Postal Service’s ability to achieve
                              service commitments for these classes of mail.

                              To improve air carrier performance, in 1998 the Postal
                              Service added a pay for performance clause to the Air
                              Systems contract. Under this clause, air carriers are eligible
                              to receive incremental pay for higher levels of service as
                              determined by their national quarterly performance scores.
                              Incremental payments range between 1 and 10 percent for
                              performance scores of 64 percent or better, as shown
                              below:

                                   Quarterly
                                  Performance                       Incremental
                                     Score	                             Pay
                                   (Percent)	                        (Percent)

                                       64 to 67.9                       1.0
                                       68 to 69.9                       1.5
                                       70 to 73.9                       2.0
                                       74 to 75.9                       4.0
                                       76 to 79.9                       5.5
                                       80 to 84.9                       7.5
                                       85 or better                    10.0

                              The Air Systems contract expires in September 2000, and
                              the Postal Service is currently negotiating with commercial
                              air carriers to renew this contract.

                              The quality of service provided by air carriers is evaluated
                              by the Postal Service’s performance measurement system.
                              This system tracks mail from the time it is dispatched at
                              origin until it is delivered to the Postal Service at the
                              destination airport mail center/facility. Mail delivery times
                              are scanned at arrival and compared to expected delivery
                              times to generate performance scores.


                                                      1
                                           Restricted Information
Commercial Air Carrier Performance:                                                                   TR-AR-00-004
Effectiveness of Pay for Performance




Objective, Scope, and              The objective of our audit was to assess the effectiveness of
Methodology                        the pay for performance clause of the Air Systems contract
                                   in improving air carrier performance. To determine whether
                                   pay for performance has been effective, we analyzed
                                   changes in air carrier performance scores since September
                                   1998, reviewed related incentive payments, and interviewed
                                   the contracting officer for the Air Systems contract. We also
                                   reviewed the Air Systems contract and interviewed
                                   representatives of six commercial air carriers3 to obtain their
                                   views on pay for performance, performance measurement,
                                   and the level of service provided the Postal Service.

                                   In our prior report on the Postal Service’s performance
                                   measurement system for air carriers,4 we concluded data
                                   supporting performance measurement was inaccurate.
                                   However, although inaccurate, we included this data in our
                                   report because it is the basis for incentive payments.

                                   This audit was conducted from May 1999 through January
                                   2000 in accordance with generally accepted government
                                   auditing standards and included tests of internal controls, as
                                   were considered necessary under the circumstances. We
                                   discussed our findings with management officials and
                                   included their comments, where appropriate.




3
    We interviewed representatives from American, Continental, Northwest, Transworld, USAir, and United Airlines.
4
    Commercial Air Carrier Performance: Performance Measurement System, TR-AR-00-003, (January 31, 1999).




                                                          2
                                               Restricted Information
Commercial Air Carrier Performance:                                                   TR-AR-00-004
Effectiveness of Pay for Performance


                                       AUDIT RESULTS
Effectiveness of Pay          The pay for performance clause of the Air Systems contract
for Performance               has not been effective in improving air carrier performance.
                              Although the intent of pay for performance was to increase
                              air carrier scores to 85 percent or better, national scores
                              have only increased from 56 to 60 percent since
                              September 1998. Further, none of the top three carriers,
                              who collectively carried 41 percent of the mail, had scores
                              high enough to qualify for incentive payments. As a result,
                              during FY 1999 the Postal Service spent only $7.8 million of
                              $67 million allocated for incentive payments under the Air
                              Systems contract. Of the $7.8 million, nearly 50 percent
                              went to two carriers that handled 11 percent of the mail.

                              Listed below is a summary of average performance
                              measurement scores and incentive payments for the 10
                              carriers with the greatest mail volumes in FY 1999:

                                  Carrier     Percent         FY99      Average      Total
                                                of          National    Percent   Incentive
                                              Volume      Performance   Change    Payments
                                              Carried     Measurement   from FY   (in 000’s)
                                               FY 99         Score         98

                                United          16                51         +3   $         0
                                Delta           15                46         +2             0
                                American        10                55         -3             0
                                Northwest       8                 62         -8         252.7
                                US Air           6                66          0         354.2
                                Continental      6                73        +23       1,416.2
                                TWA              5                67         +9         544.6
                                Emery            5                70         -5         711.7
                                Southwest        5                81         +2       2,403.7
                                America          2                64         +6         138.7
                                West

                              The six air carriers interviewed support a performance
                              based incentive system, but believed the pay for
                              performance incentives offered under the Air Systems
                              contract were insufficient to improve their performance.
                              They indicated the additional investment required to reach
                              the contract performance target far outweighed the potential
                              compensation they would receive under pay for
                              performance.

                              Air carriers also attributed limited service improvements to
                              unreliable performance scores. They believed the


                                                   3
                                         Restricted Information
Commercial Air Carrier Performance:                                                TR-AR-00-004
Effectiveness of Pay for Performance


                              performance scores generated by the Postal Service’s
                              measurement system were not an accurate reflection of
                              their true performance. Our December 28, 1999, report
                              confirmed performance scores are not sufficiently reliable to
                              support pay for performance incentive payments.
                              Performance scores were unreliable because carrier
                              delivery times were not always accurately captured through
                              the Postal Service’s scanning operations. Scan rates for
                              testing on-time delivery were also inaccurate due to a
                              reliance on historical versus actual mail volumes and the
                              inclusion of air contract tagged mail. Further, we reported
                              that because the performance measurement system tests
                              only priority mail, which comprises less than 34 percent of
                              the mail commercially flown, scores are not representative
                              of overall air carrier performance.

                              As a result, the Postal Service paid $7.8 million in incentive
                              payments with no assurances that the basis for these
                              payments was accurate. Further, these payments have not
                              produced the level of service improvements originally
                              envisioned under contract. Because air carriers believed
                              pay for performance under the Air Systems contract
                              provides them little incentive to improve performance and
                              supporting scores are unreliable, the continued use of the
                              current pay for performance system is not appropriate.

Recommendations               Due to the questionable benefits of pay for performance and
                              the lack of accurate performance data upon which to base
                              payments, we recommend the vice president, Purchasing
                              and Materials, in coordination with the vice president,
                              Network Operations Management:

                              1. Immediately discontinue pay for performance incentive
                                 payments.

Management’s                  Management agreed and are commencing discussions with
Comments                      air carriers to explore discontinuance of incentive payments
                              under the current pay for performance system.




                                                 4
                                       Restricted Information
Commercial Air Carrier Performance:                                             TR-AR-00-004
Effectiveness of Pay for Performance




                              2. Eliminate the current pay for performance clause in the
                                 upcoming renewal of the Air Systems contract.

                              Management agreed and indicated they are commencing
                              discussions with commercial air carriers to discontinue
                              incentive payments from the current pay-for-performance
                              system and the use of the current the current pay-for-
                              performance system in future contracts.

Evaluation of                 We view management’s comments as responsive to our
Management’s                  recommendations, and believe planned actions should
Comments                      address the issues identified in this report.




                                                 5
                                       Restricted Information
Commercial Air Carrier Performance:                             TR-AR-00-004
Effectiveness of Pay for Performance


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                 6
                                       Restricted Information
Commercial Air Carrier Performance:                             TR-AR-00-004
Effectiveness of Pay for Performance




Major Contributors to
This Report




                                                 7
                                       Restricted Information
